No. 20-1207

In the
Supreme Court of the United States
Alexander Balbuena,
Petitioner,
v.
Brian Cates, Acting Warden,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of service

Rene Valladares
Federal Public Defender,
District of Nevada
* Jonathan M. Kirshbaum
Assistant Federal Public Defender
Jeremy C. Baron
Assistant Federal Public Defender
411 E. Bonneville Ave. Suite 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
* Counsel of record for amici curiae

I certify that on April 1, 2021, my office served counsel for both parties
in this case with copies of the foregoing brief of amici curiae Federal Public
Defender, District of Nevada, District of Arizona, Central District of California,
and Eastern District of California, in support of Petitioner in Balbuena v.
Cates, No. 20-1207.
I certify my office served counsel for Petitioner with a copy of the amicus
brief via electronic means. On April 15, 2020, this Court entered a standing
order authorizing electronic service with the parties’ consent. Counsel for Petitioner has consented to electronic service. Counsel’s address is as follows:
David O’Neil
Debevoise & Plimpton
801 Pennsylvania Ave. N.W.
Washington, D.C., 20004
(202) 383-8000
daoneil@debevoise.com
I certify my office served counsel for Respondent by mailing to counsel a
single physical copy of the amicus brief formatted under Rule 33.2, via the
United States Postal Service with first-class postage prepaid, or via a thirdparty commercial carrier for delivery within three calendar days. Counsel’s
address is as follows:
Joshua Patashnik
Deputy Solicitor General
California Department of Justice
455 Golden Gate Ave. Suite 11000
San Francisco, CA 94102
(415) 510-3896
josh.patashnik@doj.ca.gov
1

Dated April 1, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ Jonathan M. Kirshbaum
* Jonathan M. Kirshbaum
Assistant Federal Public Defender
* Counsel of record for amici curiae

2

